              Department of the Interior
              Office of Inspector General




                Site of future visitor center at the Bureau of Land Management’s
                                    Red Rock Canyon National Conservation Area,
                            to be built with SNPLMA capital improvement funds.
                                                   Office of Inspector General Photo




      Proposed Changes to Management of
            SNPLMA Costs May Improve
                    Fund Accountability


Report No. W-FL-BLM-0007-2004                             April 2007
                       United States Department of the Interior

                                        Office of Inspector General
                                             Western Region
                                                 Federal Building
                                          2800 Cottage Way, Suite E-2712
                                             Sacramento, California 95825


                                                                               April 05, 2007
                                                                                         7430

Memorandum

To:            Director, Bureau of Land Management

From:          Michael P. Colombo
               Regional Audit Manager

Subject:       Final Report – Proposed Changes to Management of SNPLMA Costs May
               Improve Fund Accountability (Report No. W-FL-BLM-0007-2004)

        The attached report presents the results of our follow-up audit of the Bureau of Land
Management’s (BLM) controls over Southern Nevada Public Land Management Act
(SNPLMA) expenditures. In our September 2003 report, we concluded that the rapidly
increasing balance in the U.S. Treasury Special Account established for SNPLMA
necessitated stricter controls over administrative expenses. BLM agreed to tighten controls;
specifically, BLM stated that the SNPLMA Business Manager would report to the Nevada
State Office (State Office) and would be given the authority to disallow erroneous or
improper salary charges or other administrative charges assessed against SNPLMA funds.

         Our follow-up audit revealed that BLM had not increased the authority of the
Business Manager and that its reorganization of the SNPLMA Project Office had, in fact,
reduced controls over SNPLMA funds. In the absence of independent review and oversight,
Las Vegas Field Office (Field Office) officials improperly augmented appropriated funds by
at least $57,000 to as much as $224,000 by moving salaries and fringe benefits to the
SNPLMA implementation account in 2004. In addition, controls over direct transfers of
funds to federal partners need to be established in light of the change in the method of
payment for SNPLMA projects to federal partners. We are concerned about this funding
mechanism because it would transfer accountability to these agencies, while program
responsibility would remain vested with the Secretary of the Interior (Secretary). Our report
includes four recommendations to help BLM improve controls and accountability for
SNPLMA funds.

       In its November 20, 2006 response (Appendix 3), BLM generally concurred with our
recommendations, stating that it “strongly agreed that the programs authorized by SNMPLA
must have effective internal controls to ensure appropriate execution.” Based on the
response, we consider Recommendations 1 and 3 to be resolved, but not implemented and are
referring them to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation. We consider Recommendation 2 to be unresolved and have asked BLM to
reconsider the recommendation. Although BLM concurred with Recommendation 4, we
have asked for additional information. The status of the recommendations is shown in
Appendix 4.

        The legislation, as amended, creating the Office of Inspector General (OIG) requires
that we report to Congress semiannually on all audit reports issued, the monetary effect of
audit findings, actions taken to implement our audit recommendations, and recommendations
that have not been implemented. Please see Appendix 1 for the monetary effect of the
findings in this report.

        Please provide a written response to this report by May 11, 2007. The response
should supply the information requested in Appendix 4. We appreciate the cooperation
shown by BLM and its partners during our audit. If you have any questions regarding this
report, please call me at (916) 978-5653.

Attachment




                                           2
    Contents

                                                                                                                              Page

Background ......................................................................................................................1

Current Practices in Controlling SNPLMA Costs May
    Jeopardize Fund Accountability ...............................................................................3
  Controls Over Administrative Costs, Particularly Salary Costs,
    Have Not Improved Since the Prior Audit................................................................ 3
  Controls Over Direct Transfers of Funds to Federal Partners
    Need to be Established..............................................................................................6

Recommendations............................................................................................................8
   BLM Response and OIG Reply .................................................................................8

Appendices
  1 Classification of Monetary Amounts ..................................................................10
  2 Objective, Scope, Methodology, and Prior Audit Coverage .............................. 11
  3 BLM Response....................................................................................................13
  4 Status of Audit Recommendations......................................................................18




Acronyms

BLM.................................................................................... Bureau of Land Management
FWS ..................................................................................U.S. Fish and Wildlife Service
NPS .................................................................................................National Park Service
OGC ........................................... Office of Inspector General Office of General Counsel
OIG ........................................................................................Office of Inspector General
SNPLMA .............................................. Southern Nevada Public Land Management Act
U.S.C................................................................................................... United States Code
USDA.............................................................................. U.S. Department of Agriculture
USFS ...................................................................................................U.S. Forest Service


                                                         i
      Background
Congress enacted SNPLMA (Public Law                                                   U.S. Fish and Wildlife Service’s
105-263) in 1998 to facilitate the sale of                                            (FWS) Desert National Wildlife
federal land surrounding Las Vegas,                                                   Refuge; BLM’s 2.7 million acres of
Nevada. Actual and projected land sales                                               public land in Clark County,
revenues are shown in Figure 1.                                                       including Red Rock Canyon
$7,000                                                                                National Conservation Area; and the
$6,000
                                                              Estimate $6.5 B
                                                                                      U.S. Department of Agriculture
                                                                                      (USDA), U.S. Forest Service’s
$5,000
                                                                                      (USFS) Spring Mountains National
$4,000
                                                                                      Recreation Area.
$3,000


$2,000                                                                            ¾ Develop parks, trails, and natural
$1,000
                              A ctual $992 M                                        areas in Clark County, pursuant to a
                                                                                    cooperative agreement with a unit of
 $-
          FY     FY     FY       FY     FY      FY     FY     FY     FY     FY      local government.
         2000   2001   2002     2003   2004    2005   2006   2007   2008   2009


  Figure 1: Cumulative SNPLMA land sales                                          ¾ Reimburse costs incurred by the
       revenues, actual and projected.                                              local offices of BLM in arranging
                                                                                    sales or exchanges under SNPLMA.1
Receipts from land sales are distributed as
follows: 5 percent to the State of Nevada for                                     SNPLMA legislation directs the Secretary, in
use in general education, 10 percent to the                                       coordination with the Secretary of Agriculture,
Southern Nevada Water Authority, and                                              State of Nevada, local governments, and other
85 percent to a special interest-bearing                                          interested persons, to ensure accountability and
U.S. Treasury account established for                                             demonstrated results. With the exception of the
SNPLMA purposes.                                                                  authority to approve projects, the Secretary has
                                                                                  delegated authority to administer SNPLMA to
With the Secretary’s approval, funds in                                           BLM. The offices involved in administering
the SNPLMA Special Account are                                                    SNPLMA are shown in Figure 2.
available for expenditure without further
appropriation by Congress. Receipts and
interest earnings contained in the Special
Account can be used to:

¾ Purchase environmentally sensitive
  land in the State of Nevada, with
  priority given to lands in Clark                                                1
                                                                                    Language in Senate Report 106-99 provided
  County.                                                                         clarification to this provision, noting that it was
                                                                                  the intent of Congress that this “shall include not
¾ Pay for capital improvements at the                                             only the direct costs for these sales and
                                                                                  exchanges but also other [BLM] administrative
  National Park Service’s (NPS) Lake                                              costs associated with implementing the
  Mead National Recreation Area; the                                              provisions of the Act.”


                                                                            1
                                            Business Center
      State Office                           Denver, CO               In our September 2003 report,2 we
      Reno, NV                                Accounting,
      Oversight by State Director &          Investing, &
                                                                      concluded that the rapidly increasing
      SNPLMA Business Manager                 Contracting             balance in the Special Account and the
                                                                      expansion of the SNPLMA program
                                                                      necessitated stricter controls over
                                                                      administrative expenses. BLM agreed
                                                                      and stated that it would have the
                                                    Secretary,
                                                 Washington, D.C.     SNPLMA Business Manager report to
                                                 Project Approval     the State Office and give the Manager
    Field Office                                                      authority to disallow erroneous or
  Las Vegas, NV                                                       improper salary charges or other
Day-to-day operations
 under Field Office       Map courtesy of eserver.org Web site.       administrative charges assessed against
Manager & SNPLMA                                                      SNPLMA funds.
 Program Manager

     Figure 2: Offices involved in administering                      Our audit objective, scope, and
                     SNPLMA.                                          methodology, as well as prior audit
                                                                      coverage, are detailed in Appendix 2.
   BLM spent about $5 million in 2004 to
   implement SNPLMA at its three offices
   shown above. These administrative
   costs include about $2 million in
   salaries, with the majority being spent at
   the Field Office.

   To ensure accountability and
   demonstrated results, BLM and its
   federal partners (NPS, FWS, and USFS)
   created the SNPLMA Implementation
   Agreement, which established agreed-
   upon business practices to implement
   SNPLMA. The Agreement established
   the Executive Committee, which is
   chaired by the BLM Nevada State
   Director and includes regional directors
   or managers from NPS, FWS, and
   USFS. The Executive Committee is
   responsible for recommending projects
   to the Secretary for approval and for
   overseeing the use of funds on approved
   projects. BLM is responsible for
   overseeing the use of SNPLMA funds
   for administration.

                                                                      2
                                                                       OIG: Bureau of Land Management –
                                                                      Implementation of the Southern Nevada Public
                                                                      Land Management Act, Report No. 2003-I-0065,
                                                                      September 2003.


                                                                  2
Current Practices in Controlling SNPLMA Costs May
Jeopardize Fund Accountability

Our follow-up to our September 2003                 Controls over administrative
report revealed that BLM has not                    costs, particularly salary costs,
tightened controls over SNPLMA funds.               have not improved since the prior
Rather than increasing the authority of             audit.
the Business Manager, who is
responsible for overseeing SNPLMA                   While BLM attempted to improve
administrative expenditures, BLM                    controls over administrative costs by
instead relocated the position to the State         locating the SNPLMA Business
Office in Reno, Nevada, while                       Manager in the State Office in Reno,
assimilating the SNPLMA Project Office              Nevada, it did not give the Business
into the Field Office.3 This assimilation           Manager the authority to disallow
not only weakened the Business                      erroneous or improper salary charges
Manager’s authority, but also created               against SNPLMA funds and, in fact,
tension among the Business Manager;                 reduced the authority. For example, the
the Field Office, which is responsible for          Business Manager told us that the Field
the day-to-day operations of the                    Office did not respond to a 2003 request
program; and BLM’s Business Center,                 for documentation on possible improper
which is responsible for accounting,                Field Office salary charges. When the
investing, and contracting for SNPLMA.              Business Manager asked to speak with a
                                                    number of the 15 Field Office
This comes at a time when additional                supervisors, only one supervisor would
controls need to be established over the            speak with her. Further, the Business
changed method of payment to BLM’s                  Manager’s fiscal year 2003 financial
federal partners to fund SNPLMA                     review of expenditures identified about
projects. We are concerned that BLM’s               $156,000 in Field Office adjustments as
current and proposed practices in                   questionable and about $139,000 in
controlling administrative costs actually           Field Office salary charges above
jeopardize the accountability of                    budget. Yet BLM took no action based
SNPLMA funds.                                       on the Business Manager’s review.

                                                    The Business Manager’s authority was
                                                    reduced with respect to monetary
                                                    performance awards. In the prior
3
  The SNPLMA Project Office was co-located          organization, the Business Manager
with the Field Office in Las Vegas, but reported    reviewed all awards paid with SNPLMA
to the State Office. It was primarily responsible
for implementing SNPLMA until it was
                                                    funds; if the merit or amount of the
dissolved and its responsibilities incorporated     award was questioned, the Business
into the Field Office in 2002.                      Manager submitted the award


                                               3
nomination to the State Director. With                            and fourth quarters of the fiscal year.4
the assimilation of the SNPLMA Project                            These quarterly modifications affected
Office into the Field Office, however,                            pay periods throughout the year; for
the employee’s direct supervisor                                  example, a fourth quarter modification
approves the awards, and the Business                             altered costs charged during a first
Manager is no longer asked to review                              quarter pay period.
them. As a result, a fiscal year 2004
financial review by the Business Center                                        End of 2nd
                                                                  $70           Quarter
cited concerns on the lack of                                                              $64.7
                                                                  $60
coordination with the Business Manager                                                                                                                         $52.4
                                                                                                                                                                        End of
                                                                  $50




                                                 $ in thousands
on $33,000 in performance awards using                                                                                End of 3rd
                                                                                                                       Quarter
                                                                                                                                                                     Fiscal Year
                                                                  $40
SNPLMA funds because of the effect on                                                                                           $36.7
                                                                  $30
the SNPLMA budget and the apparent                                                                                $26.3
                                                                                                                                                       $30.0
                                                                  $20
lack of rationale on how the award
amounts were determined.                                          $10
                                                                              $1.1
                                                                                                         $6.7                                 $6.6
                                                                  $0
                                                                        Feb          Mar           Apr          May       Jun           Jul          Aug       Sep
As a result of BLM’s failure to
implement our recommended controls, it                                  Figure 3: Adjustments in Field Office
inappropriately augmented its                                              salary charges to the SNPLMA
appropriations by at least $57,000 (for                                       implementation account.
nine employees) and as much as                                    We tested transactions for nine5 Field
$224,000 (for a total of 68 employees) in                         Office employees whose salary charges
fiscal year 2004 by transferring salaries                         to SNPLMA had been collectively
from the regular BLM appropriation to                             increased by $57,000. In interviews
the Special Account (Appendix 1).                                 with these employees, they said that they
                                                                  coded their time to the SNPLMA
The OIG Office of General Counsel                                 implementation account whenever they
(OGC) opined that costs properly                                  worked on implementation activities and
attributable to the BLM’s operating                               that they were unaware of any
appropriation were inappropriately                                adjustments increasing their time
charged to the SNPLMA Special                                     charges to SNPLMA.
Account. OGC further opined that this
cost charging would constitute a                                  We found that the time charges were
violation of 31 U.S.C. § 1301(a) (1982)                           modified by Field Office officials to
(otherwise known as the “purpose                                  increase the charges to the SNPLMA
statute”), an inappropriate augmentation                          account without the knowledge of the
of BLM’s appropriation, and a potential                           employees’ immediate supervisors.
Antideficiency Act violation. Given the
                                                                  4
legal ramifications, BLM should obtain                              Although not a part of our review, we also
the advice of its solicitor immediately.                          identified salary adjustments adding $180,000 to
                                                                  BLM SNPLMA projects during the fourth
                                                                  quarter of fiscal year 2004.
As seen in Figure 3, Field Office                                 5
                                                                    One of the nine employees was not included in
officials modified administrative salary                          the SNPLMA budget, and we could not find
charges totaling about $224,000,                                  documentation justifying his charges. We
primarily at the end of the second, third,                        believe that these charges should have required,
                                                                  at a minimum, formal approval by either the
                                                                  Business Manager or the program manager.



                                             4
While controls were in place (supervisor         needs to ensure that the Field and State
approval for payroll adjustments, as well        Offices give full cooperation in these
as source documentation signed and               oversight efforts because without
dated by the Field Office’s payroll              effective fund controls there is a high
adjustor), none were consistently                risk for misuse of funds.
practiced. We could not find adequate
documentation to support the                     The assimilation of SNPLMA into the
adjustments for any of the nine                  Field Office increased the influence of
employees tested, despite BLM                    the Field Office on the SNPLMA
requirements to maintain such                    program, thereby creating tension
documentation.                                   between the Field Office on the one
                                                 hand and the Business Center and the
In addition to the tested salary                 Business Manager on the other. The
transactions, we identified one employee         working relationship between the Field
whose entire salary of $116,000 was              Office and Business Center has
paid by SNPLMA implementation funds              deteriorated to the point of hindering
in fiscal year 2004, even though the             program execution. For example, the
employee was working at the University           Business Center was not invited to
of Nevada, Las Vegas, under an                   participate in the 2004 update of the
Interagency Personnel Act assignment to          business practices contained in the
create a model for assessing the effects         SNPLMA Implementation Agreement,
of privatizing public land in the Las            even though the update involved
Vegas Valley. The employee worked in             revisions to financial practices.
the SNPLMA Project Office prior to
2004. While the work at the university           Subsequently, the Business Center
may have related to the SNPLMA                   believed that the revised practices, such
program, it was not an administrative            as allowing other agencies to charge
cost associated with implementing                administrative costs to the SNPLMA
SNPLMA.                                          program, were illegal and asked for a
                                                 Solicitor’s Opinion (the Opinion was
Our prior audit occurred before the              issued in February 2005). As a result,
SNPLMA Project Office was transferred            projects were delayed because federal
to the Field Office, while this audit            partners and local governments were
occurred afterward; yet both audits              reluctant to submit task orders until the
found the same control weakness over             allowability of certain costs was
administrative salary charges. We                determined.
continue to believe that effective
oversight is crucial to ensure that proper       Since the Business Center is responsible
fund controls are in place. This                 for the financial operations of BLM and
oversight should be assigned to a single         reports to BLM’s Chief Financial
responsible official with the authority to       Officer, the Business Center should be
ensure that controls over charging and           responsible for SNPLMA financial
adjusting costs are followed and to              matters. As such, the Director of the
disallow erroneous or improper salary or         Business Center should be made a
other administrative charges assessed            member of the Executive Committee, be
against SNPLMA funds. BLM also                   kept apprised of Executive Committee



                                             5
financial matters, and be allowed to                       example, an interagency review team
voice opinions and concerns on financial                   studying changes needed to the
matters under consideration by the                         Implementation Agreement stated that
Executive Committee.                                       “the primary operating principle is that
                                                           when funds are transferred to an agency,
Controls over direct transfers of                          accountability also transfers to that
funds to federal partners need to                          agency” and made the “assumption” that
be established.                                            “all agencies have internal controls,
                                                           guidelines, and management and
The February 2005 Solicitor’s Opinion                      accounting processes in place.” Under
stated that the current funding method,                    SNPLMA, the Secretary, as delegated to
which gave BLM the “power of the                           BLM, is to ensure accountability and
purse” by reimbursing its partners upon                    demonstrated results. This may prove
project completion, was not authorized                     difficult, particularly considering the
by SNPLMA and that payment for                             significant amount of money that would
approved projects should be made at                        be transferred outside the control of
logical stages in the life of a project.                   BLM and the Department (see Figure 4).
However, the Opinion stated that
funding by reimbursement may be
authorized by the Economy Act.6 As a                                  Interagency*,
                                                                        $76 M , 6%
result, the federal partners proposed, and
the Office of Management and Budget                             USFS,
                                                             $152 M , 13%
and the U.S. Treasury verbally accepted,
                                                                                                                              BLM ,
a change to the method of payment for                                                                                      $808 M , 69%
SNPLMA projects.                                                      NPS,
                                                                   $117 M , 10%

Under the change initiated in fiscal year                                     FWS,
                                                                            $28 M , 2%
2006, sub-accounts of the SNPLMA
Special Account are now used for NPS,                          *Signifies approved conservation initiative funding not specified by agency.

FWS, and USFS. The partners have
                                                            Figure 4: SNPLMA funding approved for
upfront direct access to SNPLMA funds                                   USFS in USDA.
and are responsible for obligating and
spending the money in their sub-account                    With reduced disbursement control,
for projects approved by the Secretary.7                   BLM needs to establish alternative
                                                           controls. In this regard, the interagency
Giving the federal partners upfront direct                 review team’s recommendations
access to the SNPLMA Special Account                       included a third-party audit covering
is a concern because BLM abdicates                         financial management and program
accountability over the funds. For                         effectiveness for projects. In addition,
6                                                          the Business Center proposed that each
  31 U.S.C. 1535. The Economy Act authorizes
acquisitions from other federal agencies, as well          agency submit to BLM quarterly funding
as other major organizational units within the             requests for approved projects, as well as
agency.                                                    quarterly status reports, quarterly trial
7
  BLM would revert to the funding mechanism                balance reports, and annual financial
used when it first implemented SNPLMA, where               data for BLM’s report to Congress.
it spent directly out of the Special Account for its
projects.


                                                       6
In November 2005, the Executive              funding arrangement, BLM and its
Committee approved a fund transfer           partners must ensure that appropriate
process that incorporated a number of        controls are established and maintained
the Business Center’s proposals.             so that SNPLMA funds are properly
However, the Business Center still           accounted for throughout the duration of
objected to certain procedures for           a project and the desired results from the
transitioning projects to the transfer       funding are achieved.
process. In implementing this direct




                                         7
Recommendations
We recommend BLM take the following             BLM Response and OIG Reply
actions to improve controls over
                                                In its November 20, 2006 response,
SNPLMA administrative and program
                                                BLM “strongly agreed that the
costs:
                                                programs authorized by SNMPLA
   1. Seek the advice of the Solicitor’s        must have effective internal controls
      Office to determine the proper            to ensure appropriate execution.”
      disposition of the inappropriate          BLM stated that “for this reason, we
      augmentation of BLM’s                     have engaged the services of an
      appropriation and a potential             independent consulting firm to
      Antideficiency Act violation.             examine all of the records described
                                                in the draft report, and charges to the
   2. Formally assign oversight                 SNPLMA operating account for
      responsibility for SNPLMA                 Fiscal Years (FY) 2004, 2005, and
      business matters to an                    2006.” According to BLM, the
      appropriate official, including the       review is scheduled for completion
      authority to ensure that controls         by April 2007.
      over charging and adjusting costs         Additionally, BLM performed its
      are followed and the authority to         own “extensive review of the
      disallow erroneous or improper            program relative to OIG’s
      salary or other administrative            recommendations” and “has taken
      charges assessed against                  several steps to strengthen . . . [its]
      SNPLMA funds.                             internal controls.”
   3. Include the Director of the               Recommendation 1. BLM stated
      Business Center as a member of            that it had obtained the advice of the
      the Executive Committee on                Solicitor’s Office to address the
      issues pertaining to the financial        potential augmentation of BLM’s
      practices used in implementing            appropriation and a potential
      and administering SNPLMA.                 Antideficiency Act violation. BLM
   4. As part of the direct funding             stated that “the Solicitor and BLM
      mechanism to federal partners,            have concluded that neither an
      develop and implement internal            augmentation of an appropriation,
      controls, such as third–party             nor a violation or the Antideficiency
      audits covering financial                 Act, has occurred.” Nevertheless,
      management and program                    BLM agreed to make any necessary
      effectiveness for projects,               accounting adjustments once the
      quarterly funding requests, status        analysis of the employee’s charges to
      reports, trial balance reports, and       the SNPLMA account is completed.
      annual financial data, to ensure
      accountability and results
      measurement.


                                            8
      OIG Reply. Based on BLM’s               to allow BLM to assign the
response, our OGC concurred with              responsibility for SNPLMA
BLM, contingent on confirmation               oversight to an appropriate official,
that accounting corrections are made          rather than specifically to the BLM
and conform to the results of the             Business Center.
April 2007 review. The OGC stated
that the augmentation of BLM’s                Recommendation 3. In its
appropriation would be rectified              response, BLM stated it had
once the necessary corrections are            submitted a recommendation to the
made.                                         SNPLMA Executive Committee to
                                              include “the BLM Assistant
Recommendation 2. BLM                         Director, Business and Fiscal
believes that its existing “control           Resources, or his designee as a
structure was well designed to                member of the Committee.”
manage risk and ensure
accountability for the SNPLMA                     OIG Reply. The installation of
program” and stated that SNPLMA               the BLM Assistant Director or his
“must be fully integrated into that           designee will resolve and implement
structure.” To this end, BLM’s                this recommendation.
Assistant Director, Fiscal and
Business Resources, will review               Recommendation 4. BLM
Nevada’s risk assessment and                  believes that the amended
internal control testing late in fiscal       Implementation Agreement signed
year 2007.                                    on June 7, 2006. “affords sufficient
                                              control by BLM and the other
     OIG Reply. Given BLM’s                   involved entities and will reinforce
prior SNPLMA expenditure                      existing accountability processes
practices and this report’s findings of       already mandated by federal law.”
continued improper practices, it has
been shown that BLM cannot ensure                 OIG Reply. We commend
accountability for SNPLMA                     BLM for amending the
revenues without assigning such               Implementation Agreement to
accountability to a single responsible        establish controls over the new
official. This responsibility includes        funding arrangement. However, the
the authority not only to ensure that         Implementation Agreement does not
controls over charging and adjusting          spell out the procedures and
costs are followed but also to                processes in place for BLM to detect
disallow erroneous or improper                financial irregularities or program
salary or other administrative                performance problems, which are
charges assessed against SNPLMA               key components of the overall
funds.                                        internal control process to ensure
                                              accountability and demonstrated
To provide BLM flexibility in                 results. Thus we are asking BLM to
ensuring accountability over                  provide the additional information
SNPLMA charges, we have revised               shown in Appendix 4.
our recommendation and our report



                                          9
Appendix 1
Classification of Monetary Amounts


                                                Funds to Be Put
                        Source                   to Better Use

         Augmentation of Fiscal Year 2004 BLM      $ 57,000
         Appropriations

         Inappropriate Use of SNPLMA               116,000
         Administration Funds
         Total                                     $173,000




                                         10
Appendix 2
Objective, Scope, Methodology, and Prior Audit Coverage

Objective, Scope, and                           ¾ Reviewed the Department’s Annual
Methodology                                       Report on Performance and
                                                  Accountability for fiscal years 2003
Our objective was to evaluate the                 and 2004, including information
controls in place over SNPLMA                     required by the Federal Manager’s
expenditures. The scope of our review             Financial Integrity Act. We
was controls currently in place over              determined that none of the
SNPLMA funds.                                     weaknesses reported by the
                                                  Department directly related to our
We conducted our audit in accordance              objective.
with the Government Auditing
Standards, issued by the Comptroller            ¾ Reviewed the Department’s Strategic
General of the United States.                     Plan and other documents prepared
Accordingly, we included such tests of            in accordance with the Government
records and other auditing procedures             Performance and Results Act. These
that were considered necessary under the          documents did not include goals,
circumstances. To accomplish our                  measures, or performance data for
objective, we conducted the following             SNPLMA. However, the Office of
activities:                                       Management and Budget concluded
                                                  from a 2005 review that results were
¾ Interviewed BLM State Office, Field             not demonstrated for SNPLMA
  Office, and Business Center officials,          because of the lack of annual
  and officials from NPS, FWS, USFS,              performance measures.
  Clark County, and City of Las
  Vegas.                                        ¾ Reviewed internal controls related to
                                                  SNPLMA expenditures and found a
¾ Reviewed applicable laws,                       weakness related to the adjustment
  regulations, and other criteria, such           of salary charges made against
  as the SNPLMA Implementation                    SNPLMA funds. This weakness is
  Agreement.                                      discussed in the body of the report.
                                                  If implemented, our
¾ Reviewed BLM documents,                         recommendations should improve
  including financial reports, status             internal controls in this area.
  reports, task orders, Executive
  Committee minutes, and time and
  attendance records.




                                           11
Prior Audit Coverage                               the report did not contain any
                                                   recommendations.
We have issued two reports on
SNPLMA in the past 5 years.                     ¾ June 2001, Evaluation of the Bureau
                                                  of Land Management’s Controls
¾ September 2003, Bureau of Land                  Over Receipts and Disbursement of
  Management – Implementation of the              Funds Derived From Land Sales
  Southern Nevada Public Land                     Authorized by the Southern Nevada
  Management Act (No. 2003-I-0065).               Public Land Management Act (No.
  This report concluded that BLM had              01-I-406). This advisory letter
  implemented SNPLMA in a                         concluded that the SNPLMA Project
  businesslike manner, and that its land          Office had established sufficient
  sales program was a model for                   internal controls for tracking receipts
  success. However, the report noted              from the sale of SNPLMA
  that BLM needed to improve its                  properties. The evaluation noted a
  controls over administrative                    minor weakness in the separation of
  expenses, including salaries, because           duties over cash deposits and
  the Field Office inappropriately                reconciliations with the
  charged certain salary costs to                 Department’s collection and billing
  SNPLMA. As the State Director and               system, which was resolved prior to
  the Associate State Director agreed             issuance of the letter. The letter did
  to implement stringent fund controls,           not contain any recommendations.




                                           12
Appendix 3
BLM Response




               13
14
15
16
17
Appendix 4
Status of Audit Recommendations



      Recommendation       Status                    Action Required
           1 and 3      Resolved; Not   We will refer the recommendations to
                        Implemented     the Assistant Secretary for Policy,
                                        Management and Budget for tracking
                                        of implementation.
             2           Unresolved     Reconsider the recommendation and
                                        provide a plan identifying actions to be
                                        taken, target dates for completion, and
                                        the title of the official responsible for
                                        implementation.
             4          Management      Provide the procedures and processes
                         Concurs;       in place for BLM to detect financial
                         Additional     irregularities or program performance
                        Information     problems.
                          Needed




                                  18
